<html>
<title> - CIVIL NUCLEAR COOPERATION WITH PAKISTAN: PROSPECTS AND CONSEQUENCES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





  CIVIL NUCLEAR COOPERATION WITH PAKISTAN: PROSPECTS AND CONSEQUENCES

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2015

                               __________

                           Serial No. 114-124

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______


                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-855PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

His Excellency Husain Haqqani, director for South and Central 
  Asia, The Hudson Institute.....................................     5
Daniel S. Markey, Ph.D., senior research professor, School of 
  Advanced International Studies, Johns Hopkins University.......    18
Mr. Henry D. Sokolski, executive director, Nonproliferation 
  Policy Education Center........................................    24
George Perkovich, Ph.D., vice president for studies, Carnegie 
  Endowment for International Peace..............................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

His Excellency Husain Haqqani: Prepared statement................     8
Daniel S. Markey, Ph.D.: Prepared statement......................    20
Mr. Henry D. Sokolski: Prepared statement........................    26
George Perkovich, Ph.D.: Prepared statement......................    36

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
Mr. Henry D. Sokolski: Material submitted for the record.........    56

 
  CIVIL NUCLEAR COOPERATION WITH PAKISTAN: PROSPECTS AND CONSEQUENCES

                              ----------                              


                       TUESDAY, DECEMBER 8, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:01 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    Since the United States entered into a civil nuclear 
cooperation agreement with India in 2005, Pakistan has pressed 
for a similar arrangement. Pakistan sent a 56-page document to 
the U.S. officials in 2010 reiterating its request for U.S. 
support for its civilian nuclear program. Since 2010, U.S. 
officials have hinted at the possibility of this prospect. U.S. 
Ambassador to Pakistan Anne Patterson commented at the time 
that we were ``beginning to have a discussion with Islamabad 
about this issue.'' She noted that, while the U.S. had serious 
nonproliferation concerns, we are beginning to pass on those.
    Nothing came out of those discussions. This past October, 
news outlets suddenly reported that the administration was 
allegedly revisiting this possibility. Administration officials 
quickly denied these claims, but this serious and recurring 
topic requires more examination. Discussions about a potential 
nuclear deal could send the wrong message to Pakistan, in my 
opinion, the Benedict Arnold of American allies.
    Pakistan crossed the nuclear weapons threshold in 1985 
under the direction of the notorious scientist A.Q. Khan. In 
the very early years of the network, Khan established an 
extensive clandestine network in order to obtain necessary 
technologies and materials. Later on, Khan used similar 
channels to make a profit by selling nuclear designs and 
materials to other countries.
    The A.Q. Khan network is believed to have sold sensitive 
nuclear technology to the most unstable countries on the 
planet. It was the Khan network that allowed North Korea to get 
its uranium enrichment program up and running. Khan also sold 
Libya design secrets and nuclear weapons components during the 
same time. In 1987, Iran admitted to international inspectors 
that Khan's network provided scientists with centrifuge 
specifications and equipment.
    So we have North Korea, we have Libya, and we have Iran. 
Pakistani scientists even met with Osama bin Laden in 1998 to 
discuss how to create a nuclear bomb. The full extent of the 
network's illicit proliferation remains unknown because 
Pakistan just won't come clean.
    Pakistan's ties to terrorists do not end with the 
discussions about nuclear weapons. Pakistan has a long history 
of supporting terrorist proxies as a way of increasing its 
leverage in the region. Pakistan maintains close links with the 
Afghan Taliban, even allegedly holding direct meetings with 
senior leaders and coordinating attacks.
    There is evidence that Pakistan worked closely with Al 
Qaeda, helping the terrorists move arms and fighters in and out 
of Afghanistan to kill U.S. troops. In 2011, Admiral Mike 
Mullen, then Chairman of the U.S. Joint Chiefs of Staff, 
testified before Congress that Pakistan supported numerous 
terrorist attacks by the Haqqani network in Afghanistan against 
American troops. What an indictment.
    One truck bombing at the NATO outpost south of Kabul on 
September 10, 2011, killed at least 5 people and wounded 77 
coalition soldiers. The attack was one of the worst tolls for 
foreign troops in a single attack in the war. Another Pakistan-
supported Haqqani network was an assault on the U.S. Embassy 
that killed 16 Afghan police officers and civilians. Mullen 
said, ``The Haqqani network acts as a veritable arm of the 
Pakistan's Inter-Services Intelligence Agency.''
    Meanwhile, Pakistan is among the leading recipients of U.S. 
foreign assistance post-9/11. Congress has appropriated more 
than $30 billion in assistance to Pakistan between 2002 and 
2015. Instead of talking about the possibility of rewarding 
Pakistan with a nuclear deal, we should be enforcing the 
consequences for Pakistan's bad behavior. It seems ironic to me 
we keep sending money to Islamabad while Pakistan continues 
supporting terrorist groups that have killed American troops. 
This has got to cease.
    There are more steps in stopping its support for terrorists 
that Pakistan needs to take before we could even entertain the 
possibility of some kind of new type of nuclear agreement with 
them. They should start with disclosing exactly who they have 
given nuclear technology to. They need to fess up.
    Pakistan should slow down its rapid production of nuclear 
weapons. Pakistan already has 110 to 130 nuclear warheads and 
enough material to bring that total up to 400 to 500. If it 
continues on its current pace, it will surpass the United 
Kingdom as the fifth-largest nuclear-weapons state in the 
world.
    A civilian nuclear cooperation agreement would legitimize 
the Pakistani nuclear weapons program and reward Islamabad for 
its long history of bad behavior. We have already signed a bad 
agreement with Iran; we cannot afford to enter into another bad 
nuclear agreement that would further endanger not just American 
security but global security.
    And that's the way it is.
    I will now yield to the ranking member from Massachusetts, 
Mr. Keating, for his opening statement.
    Mr. Keating. Thank you, Mr. Chairman.
    And thank you to the witnesses who appear today.
    As we consider the issue of possible future civil nuclear 
cooperation with Pakistan, it is important to keep in mind that 
no agreement of any kind is on the table or appears very likely 
in the near future. Recent talks between the United States and 
Pakistan on this subject seem to be preliminary, and there is 
little indication at this juncture that Pakistan would agree to 
the sorts of constraints on the nuclear arsenal on which the 
United States would insist. Any arrangement allowing for U.S. 
civilian nuclear cooperation with Pakistan is hypothetical at 
this point.
    With that said, Pakistan's security situation and its 
disputes with India present many serious risks. And I look 
forward to the testimony today on how best the United States 
can act to manage these risks. Many analysts view Pakistan's 
nuclear weapons and the risks that these weapons could fall 
into the hands of terrorists or be used by Pakistan in an armed 
conflict with India as one of the world's most dangerous 
problems.
    In addition to being a nuclear-arms state in an extremely 
dangerous neighborhood, Pakistan presents other difficulties, 
as well. Pakistan has a history of proliferation. The network 
led by one of the founders of its nuclear program, A.Q. Khan, 
sold nuclear-weapons-related equipment and technology to Iran, 
Libya, and North Korea.
    Further, while the United States partners with Pakistani 
counterterrorism activities, Pakistan has sometimes failed to 
tackle and elements of the government have lent even active 
support to violent extremist organizations, such as LET in 
Kashmir and Haqqani and the network that it organizes in 
Afghanistan. Perhaps most disturbingly, Pakistan's intelligence 
service, the ISI, is reported to have provided considerable 
assistance to LET in planning the November 2008 terrorist 
attacks in Mumbai that killed 166 people, including 5 U.S. 
citizens.
    To be sure, Pakistan is a difficult partner in 
counterterrorism, just as it can be with respect to 
counterproliferation. Yet the issues of the security of 
Pakistan's nuclear arsenal, the prevention of further 
proliferation of Pakistan's nuclear equipment and technology, 
and deescalating nuclear tensions with India are not issues the 
United States can ignore. We must engage with Pakistan on these 
critical subjects.
    I look forward to the information and discussion today of 
our witnesses on how best we can work with Pakistan and other 
stakeholders on these issues.
    I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair will recognize the gentleman from California, Mr. 
Sherman, for a 1-minute opening statement.
    Mr. Sherman. Thank you, Mr. Chairman.
    I was once chairman of this subcommittee. I see the ranking 
membership is in great hands. But one of the reasons why I 
moved over to Asia is I believe the greatest threat we have of 
the use of nuclear weapons is indeed in South Asia.
    I don't think that there is any chance that a civil nuclear 
deal would be approved by Congress, but that doesn't mean that 
we shouldn't be talking to the Pakistanis about it. And I think 
our focus should be not to punish Pakistan for the 
proliferation of the past but to see if we can get an 
improvement in Pakistani behavior in the future.
    Pakistan is the world's only schizophrenic nuclear power. 
Pakistan doesn't just confuse anyone who studies it, it is, in 
fact, confused. Just the military elements are simultaneously 
fighting terrorists on the ground, at great cost, and 
supporting terrorists at the same time.
    And we see India, which needs to be persuaded that if there 
is a terrorist attack it cannot respond by pushing its military 
across the border, and Pakistan, which must be persuaded that 
no matter what happens with conventional weapons they cannot 
cross the line to nuclear. And there is no such thing as a 
small nuclear weapon.
    So I look forward to the gentlemen in front of us telling 
us how we can easily solve this problem.
    I yield back.
    Mr. Poe. Without objection, all members will have 5 days to 
submit statements and questions and extraneous materials for 
the record, subject to the length limitation in the rules.
    Without objection, all the witnesses' prepared statements 
will be made part of this record.
    I ask that each witness will keep their presentation to no 
more than 5 minutes.
    As you probably heard, the bells are ringing. We are voting 
again. We will adjourn at some appropriate time, or recess at 
some appropriate time, so that we can vote.
    I will introduce each witness and then give each of you 
time to summarize your statements.
    Ambassador Haqqani is a Pakistan scholar and public figure 
who served as Pakistan's Ambassador to the United States from 
2008 to 2011. He is widely credited with managing a difficult 
period of U.S. and Pakistan relations during the global war on 
terrorism.
    Mr. Ambassador, welcome for being here.
    Dr. Daniel Markey is a senior research professor at the 
Johns Hopkins University School of Advanced International 
Studies. Previously, he was a senior fellow for India, 
Pakistan, and the South Asia at CFR, where he specialized in 
security and governance issues.
    Mr. Henry Sokolski is currently the executive director of 
the Nonproliferation Policy Education Center. He previously 
served in the Pentagon as Deputy for Nonproliferation Policy 
and received a medal for outstanding public service from the 
Secretary of Defense, Dick Cheney.
    It is good to have you back before our subcommittee.
    And Dr. George Perkovich is vice president for studies at 
the Carnegie Endowment for International Peace, where he 
focuses on nuclear strategy, nonproliferation issues, and South 
Asian security. He is also the author of the prize-winning 
book, ``India's Nuclear Bomb.''
    At this time, the subcommittee will be in recess until this 
series of votes are over. We will be back, and then we will get 
to hear what you have to say about this complex issue. Thank 
you, gentlemen.
    We will be in recess.
    [Recess.]
    Mr. Poe. The subcommittee will come to order.
    For everyone's information, it is my understanding that 
this series of interruptions will continue for the foreseeable 
evening, but let's see how far we can go.
    Mr. Ambassador.

STATEMENT OF HIS EXCELLENCY HUSAIN HAQQANI, DIRECTOR FOR SOUTH 
             AND CENTRAL ASIA, THE HUDSON INSTITUTE

    Ambassador Haqqani. Mr. Chairman, thank you very much for 
this opportunity to share with you and members of this 
committee my views on U.S.-Pakistan relations in general and 
the civil nuclear cooperation in particular.
    My written statement is already in front of the committee. 
Fundamentally, my point is that, although the Obama 
administration and Pakistani officials have both officially 
stated that formal negotiations are not currently underway for 
a civil nuclear deal for Pakistan, it is obvious that at least 
some elements of the current administration think that they can 
secure a change in Pakistan's policies by offering it a nuclear 
accord along the lines offered to India.
    It is argued that, in return for Pakistan agreeing to 
restrict its nuclear program to weapons and delivery systems 
that are appropriate to its actual defense needs against 
India's nuclear threat, <greek-l>quote,  deg.``the United 
States might support an eventual waiver for Pakistan by the 48-
nation Nuclear Suppliers Group.''
    Pakistani officials have already said that, since they 
already get their nuclear materials from China, there is no 
advantage to them of membership of the Nuclear Suppliers Group.
    The expectation that Pakistan would limit its nuclear 
arsenal is similar to the unrealistic expectation during the 
1980s that supplying Pakistan with large amounts of economic 
aid and state-of-the-art military equipment, including F-16 
aircraft, would lead to Pakistan stopping short of developing 
nuclear weapons altogether.
    In my written testimony, you will actually find exact 
quotes from American officials who at that time reassured and 
assured Congress several times that support for Pakistan's 
conventional military buildup was the only way to save Pakistan 
from going nuclear. And we all know where that led us.
    The reason why such mistakes have been made--and I have 
written an entire book on the subject--is because American 
officials often fail to understand Pakistan's ambitions in 
South Asia and the policies that follow from those ambitions.
    If the purpose of Pakistan's development of nuclear weapons 
had been just to ensure that Pakistan was not overrun by a 
superior Indian military force, which is a legitimate defense 
goal, that objective was met by Pakistan nuclear tests 
conducted in 1998. Pakistan has refused to abjure first use of 
nuclear weapons in a conflict, a position similar to that of 
North Korea, which also claimed that it feared being overrun by 
a superior conventional force.
    The most likely scenario for nuclear conflict or military 
escalation on the subcontinent at the moment involves 
escalation resulting from terrorism of the kind we all 
witnessed in Mumbai in 2008.
    Notwithstanding attempts in the United States to sell the 
prospect of a deal as a restraint on Pakistan's nuclear 
capabilities, Pakistan's leaders see parity with India as the 
only reason they should seek a civil nuclear deal with the 
United States. Ever since the U.S.-India's nuclear deal of 
2005, as Mr. Chairman, you pointed out, Pakistan's leaders have 
sought a similar deal to affirm that the two South Asian 
neighbors are equal in status and prestige.
    American readiness to look the other way at Pakistan's 
conduct, such as support for jihadi terrorists, including the 
Afghan Taliban and the discovery of Osama bin Laden in a 
Pakistani garrison town, as well as U.S. willingness to offer 
aid to Pakistan even without fulfillment of conditionality 
mandated by Congress on the basis of Secretary of State's 
waivers has often ended up as an enabler of Pakistan's 
dysfunction.
    I would argue that Pakistan's dysfunction stems from its 
desire to compete with India. Instead of discussing civil 
nuclear deals and selling more military equipment to Pakistan, 
U.S. officials should convince Pakistan that its ambitions of 
rivaling India are akin to Belgium trying to rival France or 
Germany. India's population is 6 times as large as Pakistan's, 
while India's economy is 10 times bigger and growing. India's 
$2 trillion economy has managed consistent growth, whereas 
Pakistan's $245 billion economy has grown sporadically and is 
undermined by jihadist terrorism and domestic political chaos.
    Pakistan also continues to depend on Islamist ideology 
through its school curricula, propaganda, and Islamic 
legislation to maintain internal nationalist cohesion, which 
inevitably encourages extremism and religious intolerance.
    It must be understood that, like all nations, Pakistan has 
a right to defend itself, and nobody denies it that right. 
Pakistan's concern about resolution of the dispute over Jammu 
and Kashmir also deserves attention, albeit by peaceful means.
    But Pakistan's security needs should be judiciously 
examined. Unlike other countries, Pakistan did not raise an 
army to match the threats it faces. Pakistan inherited 33 
percent of British India's army, raised for the Second World 
War, at independence in 1947, and has sought to identify 
threats that matched the size of that army.
    Pakistan is the sixth-largest nation in the world by 
population but only 26th by size of GDP on a purchasing power 
parity basis and 42nd in nominal GDP. It has the world's sixth-
largest nuclear arsenal and eighth-largest army but performs 
poorly in most nonmilitary indices. Pakistan's literacy rate 
stands at 52 percent, and the country has one of the highest 
percentages of out-of-school children in the world.
    The military and intelligence services that dominate 
Pakistani national security decision making have sacrificed 
their country's prosperity and progress in their relentless 
pursuit of military competition with India. Forcing New Delhi's 
hand on Kashmir has become more important than educating 
Pakistan's children.
    Since the 1950s, U.S. policy has ended up nurturing 
Pakistan's military and keeping alive its dream of parity with 
India----
    Mr. Poe. Summarize your comments, Mr. Ambassador. We have a 
long way to go. Your statements are in the record, so summarize 
your final comments.
    Ambassador Haqqani. My final comment is that raising the 
prospect of a civil nuclear deal with Pakistan without 
addressing the country's dysfunction and militarism will aid 
neither U.S. policy objectives nor the people of Pakistan, who 
are perhaps the biggest victims of the national elite's 
erroneous policies.
    Thank you.
    [The prepared statement of Mr. Haqqani follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
    
                              ----------                              

    Mr. Poe. Thank you, Mr. Ambassador.
    Dr. Markey, you have 5 minutes.

     STATEMENT OF DANIEL S. MARKEY, PH.D., SENIOR RESEARCH 
  PROFESSOR, SCHOOL OF ADVANCED INTERNATIONAL STUDIES, JOHNS 
                       HOPKINS UNIVERSITY

    Mr. Markey. Chairman Poe, Ranking Member Keating, and 
members of the subcommittee, thank you for inviting me to 
testify about the potential ramifications of a civil nuclear 
agreement with Pakistan.
    Obviously, this has already been submitted for the record, 
so I will give some brief remarks now. Let me jump right to my 
bottom line.
    A nuclear deal of the sort that is reportedly being 
discussed with Pakistan is hardly the blockbuster that some 
commentators in the media would have us believe. It is less 
than meets the eye. Even so, discussions of a nuclear deal are 
poorly timed and, if pursued further, would be more likely to 
prove counterproductive to other near-term security interests 
than to deliver significant benefits.
    Now, in the abstract, I can imagine a good nuclear deal 
with Pakistan. And we should expect that diligent and creative 
American diplomats are exploring various options for securing 
and limiting the expansion of Pakistan's nuclear arsenal. And 
if, as some analysts propose, Pakistan could be encouraged to 
commit to important limits on its nuclear program, then U.S. 
policymakers would have more and better reasons to think 
seriously about ways we could bring Pakistan into the world's 
nuclear order.
    But I don't think that Washington or Islamabad is actually 
ready to have serious conversations along these lines. I see no 
indication that Pakistan's military leadership is inclined to 
place voluntary limits on the growth of its nuclear arsenal. 
That arsenal has always been justified as a deterrent against 
Indian aggression, and Indo-Pakistani relations are stuck in 
hostility.
    India, as a rising power, is expanding its military. This 
will continue because India competes not only with Pakistan but 
also with China. Any Indian military sized to deal with 
Pakistan alone would be insufficient to defend against China, 
while any program sized to deal with China would pose a 
menacing threat to Pakistan. And because Pakistan uses its 
nuclear program to make up for India's superior conventional 
military power, the chances of Islamabad accepting nuclear caps 
while India's military grows are slim.
    In sum, this triangular security dilemma between China, 
India, and Pakistan, or maybe even quadrilateral security 
dilemma if you include the United States, is a structural 
dynamic that favors persistent competition, most of all by the 
weakest player--that is, Pakistan.
    Now, even if Pakistan were to take incremental steps to 
limit the future growth of its nuclear program, I suspect and I 
think the comments already made here today reinforce the notion 
that that would not be sufficient reason for the United States 
to champion Pakistan's mainstreaming in the global nuclear 
order. Placing limits on future nuclear growth would do too 
little to address our current concerns about Pakistan's nuclear 
arsenal. And that arsenal poses significant and serious 
threats, including that of insider theft, onward proliferation, 
accident sabotage, or unauthorized use.
    So, in other words, I doubt our own ability or our 
interests in delivering on even limited diplomatic benefits 
that Pakistan would expect if it committed to slowing or 
stopping the growth of its arsenal, which I already said is 
unlikely.
    Now, worst of all, the nuclear discussion shifts attention 
away from the other issues that worry us in Pakistan. Now, at 
present, the U.S. State Department has trouble certifying that 
Pakistan's military has targeted the Haqqani network that has 
so viciously attacked U.S., Afghan, Indian, and coalition 
partners in Afghanistan. And U.S. officials do not believe that 
Pakistan has seriously tried to go after Lashkar-e-Taiba, the 
terrorist group responsible for Mumbai.
    Now, several other pressing issues also deserve more 
attention in a U.S.-Pakistan dialogue than does a nuclear deal. 
To start, Washington needs Islamabad's commitment to advance 
any hope of a reconciliation process with the Afghan Taliban--
again, an unlikely thing but something that is currently an 
essential pillar in the Obama administration's war-termination 
strategy in Afghanistan.
    And relations between Pakistan and India are also troubled. 
U.S. officials would be smart, I think, to encourage a 
resumption of their formal and back-channel dialogues, if 
principally as a tactic to forestall a future crises. And I was 
happy to see the news just this past week of NSA-led-level 
talks in Bangkok between India and Pakistan.
    And Washington also has much to discuss with Pakistan about 
the state of its own counterterror and counterinsurgency 
operations inside Pakistan, from its tribal areas to its major 
urban centers.
    Now, if these short-term agenda items were somehow 
exhausted, Pakistan's current condition raises other 
fundamental questions about its long-term relationship with the 
United States. Its fragile economy, its troubled civil-military 
relations, its bloody sectarian cleavages, anti-U.S. prejudices 
all inhibit trust-based partnership.
    In sum, this is a big country, an important location, with 
nearly insurmountable challenges at home and with its 
neighbors. And my concern is that, by turning senior-level 
attention to a nuclear deal, Washington sends a wrong and 
counterproductive message to Pakistan, as we have in the past. 
We are too likely to come across as distracted, unable to set 
and maintain priorities, and suffering from unfounded 
expectations.
    Thank you.
    [The prepared statement of Mr. Markey follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                              ----------                              

    Mr. Poe. Thank you, Dr. Markey.
    Mr. Sokolski, 5 minutes.

    STATEMENT OF MR. HENRY D. SOKOLSKI, EXECUTIVE DIRECTOR, 
            NONPROLIFERATION POLICY EDUCATION CENTER

    Mr. Sokolski. Mr. Chairman, Ranking Member Keating, thank 
you for inviting me to testify today.
    I ask that, in addition to my testimony, one two-page 
addition be entered into the record, if that is okay.
    Mr. Poe. Without objection.
    Mr. Sokolski. Thank you.
    I would like to focus on two points: First, why offering 
Pakistan civilian nuclear incentives is self-defeating; second, 
why implementing title 5 of the Nuclear Nonproliferation Act of 
1978, which calls for nonnuclear cooperation and energy 
assessments for developing states, would make more sense.
    Several U.S. analysts recently championed offering Pakistan 
civilian nuclear incentives like those we have extended to 
India. They argue the U.S. could offer Pakistan a 123 agreement 
as it did for India or sponsor Pakistan's entry into the 
Nuclear Suppliers Group, as it is now trying to do with India. 
This would enable Islamabad to acquire Nuclear Supplier Group-
controlled nuclear goods and a portion of the equal treatment 
that it seeks.
    Short of NSG membership, they argue, the U.S. might push 
the NSG to waive restrictions on NSG-controlled exports to 
Pakistan, something the NSG has already done at Washington's 
urging for India. This line of thinking appears to have been 
behind the administration's recent talks with Pakistani 
officials.
    In the end, however, no deal was cut. This should not be 
surprising. First, offering civilian nuclear incentives to 
moderate Pakistan's nuclear posture is diplomatically risky. 
Pakistan and China may object to the U.S. pushing for India's 
membership in the NSG, but trying to address their concerns by 
offering Pakistan NSG membership or an NSG waiver is not only 
certain to upset India but Pakistan, which demands being 
treated in an identical fashion with India.
    This, though, would require sealing a formal nuclear 
cooperative agreement that would upset India even more and 
cause a possible backlash here on the Hill. It would also 
likely prompt Israel to ask for similar treatment, which, in 
turn, would complicate nuclear restraint efforts in the Middle 
East.
    Second, it undermines nuclear restraint. The U.S. tried 
trading civilian nuclear incentives with India in 2008. 
Washington persuaded the NSG to allow India to import uranium 
for its civilian nuclear program. Yet this has only allowed 
India to dedicate more of its meager domestic uranium 
production to military purposes. Bizarrely, then, our peaceful 
nuclear initiative with India now is enabling India to make 
more bombs. Thus, Chairman Corker of the Senate Foreign 
Relations Committee recently noted that his vote in favor of 
the deal back in 2008 was a mistake, that it has only 
undermined international nuclear restraint. Certainly, 
Pakistan's military would benefit no less from access to 
internationally available advanced nuclear technology and 
goods.
    Finally, nuclear power is a poor form of energy assistance. 
The USAID, the World Bank, and the Asian Development Bank, 
institutions dedicated to upgrading Pakistan's energy system, 
have all focused on nonnuclear projects. These include 
Pakistan's electrical distribution system--only roughly half of 
Pakistanis are able to connect to the central grid; reforming 
the financial management of its utilities, which continually 
fail to collect payment for electricity supplied; increasing 
energy efficiency--Pakistan's rating is among the world's 
worst; and preventing electrical theft, which accounts for a 
disturbing percentage of the electricity consumed; increasing 
utilization of natural gas, hydropower, solar, and wind 
resources, of which Pakistan has a considerable amount; and 
development of gas and oil pipelines.
    These outfits understand what several detailed energy 
assessments have determined: Nuclear power can only supply a 
small fraction of Pakistan's electrical needs and is extremely 
expensive. By now, we should all know this.
    Much of New Delhi's nuclear weapons program was a direct 
result of Eisenhower's Atoms for Peace Program. I note this is 
the 62nd anniversary today of that program. India's first bomb 
came from plutonium produced in a Canadian reactor, moderated 
with U.S.-supplied heavy water, reprocessed in a U.S.-designed 
plant. India promised material to be strictly used for peaceful 
purposes. The rest is history.
    Recently, though, we compounded matters with the 2008 India 
nuclear deal. We need to stop pushing such deals. At a minimum, 
Congress should demand that the Executive implement title 5 of 
the Nuclear Nonproliferation Act, which calls for nonnuclear 
cooperation and energy assessments with developing states.
    Much of this work is currently done by AID but not under 
the act. The act calls for country-specific assessments, annual 
reports, and the creation of a nonnuclear energy peace corps. 
Unfortunately, it has never been implemented. After 37 years 
and the recent events regarding Pakistan, Congress should hold 
a hearing and find out why.
    Thank you.
    [The prepared statement of Mr. Sokolski follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Poe. And Dr. Perkovich.

   STATEMENT OF GEORGE PERKOVICH, PH.D., VICE PRESIDENT FOR 
      STUDIES, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Perkovich. Thank you, Chairman Poe and Ranking Member 
Keating.
    I won't repeat what my colleagues have said, and I agree 
with much of it. Fundamentally, there is not going to be a 
nuclear deal like was reported in the press for reasons that my 
colleagues have mentioned. But I think that the very idea and 
the discussion that we are having is useful because it allows 
us and you to elucidate and think through some of the issues 
that are involved.
    I would begin by saying that the proliferation damage done 
by the Khan network is an enormous fact. It is an enormously 
important fact. But, at some point, the question then arises 
whether and when to learn from this fact and try to create new 
facts that are more propitious. Because if we have the status 
quo that happened in the past and that becomes the future, it 
is not anything that any of us would welcome.
    Now, one way to deal with it is to propose new punishments 
to try to change Pakistan's behavior. But I am not aware of 
anybody who suggests doing that over nuclear policy in Pakistan 
today, in part because Pakistan's actions to secure its nuclear 
arsenals and cooperate with the U.S. and the Department of 
Energy in that domain, which is very important for 
counterterrorism, has largely been positive. So what we are 
most worried about now is actually the expansion and future 
growth of the Pakistani nuclear arsenal and the implications of 
that for stability.
    So the question, then, is, you know, what can and should be 
done to motivate Pakistan to continue to improve its controls 
over nuclear materials and facilities and also to limit the 
growth of its nuclear arsenal?
    One answer is to just continue to isolate Pakistan and not 
deal with them. And that could go on forever as a policy. 
Indeed, that is the implication of a number of policies that we 
are practicing. The problem with that is obvious, which is, if 
Pakistan is facing that forever, what incentives do they have 
to change the course they are on?
    So another answer is to try to offer Pakistan ways to end 
its isolation by building international confidence that it is 
managing its nuclear program to standards comparable to those 
of other nuclear-armed states and that it is going to limit its 
nuclear forces. And I think that is the objective that the 
Obama administration reportedly pursued. And for reasons that 
we have talked about, Pakistan is not going to agree to that.
    Now, there is another way that you could begin to pursue 
these objectives, and that would be to convey that no states 
that possess nuclear weapons outside of the Non-Proliferation 
Treaty--so that means Israel, India, and Pakistan--none of 
those states would be offered membership in the Nuclear 
Suppliers Group without having met criteria that the NSG would 
have established. And those criteria, at a minimum, would deal 
with the security of nuclear facilities and materials but also 
could cover the nonexpansion of the nuclear arsenal.
    These NSG criteria would be established, and so only states 
that met those criteria could be admitted. But it also would 
mean that any state that did get admitted, such as India, 
wouldn't be able to then block any other state forever from 
joining. Because the Nuclear Suppliers Group operates by 
consensus. Once India is in, as Obama is proposing, they can 
block Pakistan forever. And that is, in a sense, an incentive 
for unwelcome behavior in Pakistan.
    Now, my colleagues have talked about some of the reasons 
that Pakistan won't agree, actually, to any of the things that 
could plausibly be proposed. I agree with all that. The 
fundamental issue is that Pakistan insists upon having what 
India has. And Ambassador Haqqani has written books on this; 
his testimony is elucidating on this.
    And the problem here is that the nuclear deal that we made 
with India puts no limits on India's strategic nuclear 
capabilities. There are no limits on its fissile material 
production for weapons. There are no limits on the growth of 
its nuclear arsenal. There are no limits on its missile program 
and trajectory. And because of those reasons, the Pakistanis 
say, well, we want that, but the United States is never going 
to agree to no limitations in such an arrangement, and never 
the twain shall meet.
    So the only way to get at this problem is what Dan alluded 
to, is you would need a process with China, with India, with 
Pakistan and the U.S., all of us dealing with not only our 
nuclear and missile programs but new programs like conventional 
prompt global strike--the whole array of conventional and 
nuclear weapons that drive all of these players in this 
multifaceted competition. Anything less than that is not going 
to actually get the kind of limitations the administration is 
seeking.
    Thank you.
    [The prepared statement of Mr. Perkovich follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                              ----------                              

    Mr. Poe. Thank you all for all of the information, valuable 
information. And, of course, your official statements are part 
of the record.
    I will say this at the outset. Many members may have 
questions in writing that will be submitted to you. They are 
not in attendance. But look forward to, during the holidays, 
answering some of those questions and sending them back to us.
    I will start and yield myself 5 minutes for questions.
    Dr. Markey, what is the name of the terrorist organization 
responsible for the Mumbai terror attack?
    Mr. Markey. Lashkar-e-Taiba.
    Mr. Poe. And are they in Pakistan?
    Mr. Markey. I believe, so, yeah.
    Mr. Poe. How big are they?
    Mr. Markey. Thousands.
    Mr. Poe. And has Pakistan done anything to hold them 
accountable for that attack?
    Mr. Markey. Not nearly as much as we would like.
    Mr. Poe. What have they done, briefly?
    Mr. Markey. In brief, what they----
    Mr. Poe. Nobody has been arrested, have they?
    Mr. Markey. Well, yes, they have, but they weren't kept 
locked up.
    I think what they have done is they have tried to put a lid 
on LET, on its operations, particularly any operations that 
would cross into India, and to--they would claim, that is--try 
to keep their violent activities to a minimum.
    But what they haven't done and what is quite obvious to 
anybody watching is keep a lid on LET's leadership or keep it 
out of the media and keep it from organizing and from 
conducting large-scale rallies in major Pakistani cities that 
Indians, of course, and others see as profoundly troubling.
    Mr. Poe. A question regarding nuclear proliferation. We 
talked about what Pakistan--I mentioned about Pakistan helping 
North Korea, Iran, and Libya develop nuclear weapon capability. 
What about currently? Are they still sort of a rogue nation 
helping deliver any type of nuclear capability to anyone, 
terrorist organizations or nation-states?
    Yes, sir, Mr. Sokolski?
    Mr. Sokolski. The big question is what connection, if any, 
will they possibly have in the future to Saudi Arabia. And 
pundits love to say that will never happen, and pundits love to 
say it will happen. We don't know.
    Mr. Poe. So there is that possibility.
    Mr. Sokolski. There is.
    Mr. Poe. And if we agree to this type of nuclear agreement 
with Pakistan, who is I don't think an ally of the United 
States, then allies of the United States, such as Israel, will 
want the same deal. Is that correct? Is that what you said, Mr. 
Sokolski?
    Mr. Sokolski. It is a problem.
    I used to work for a man who just died, Harry Rowen, who 
was Assistant Secretary of Defense, had to deal with these 
problems. He always said that whenever he talked with Indians 
and they brought up the topic of nuclear reactors or rockets he 
would try to change the subject. Very good counsel. I think 
changing the subject here is important.
    In the case of Pakistan, one of the things they want is 
equality at some level or recognition of their nuclear systems. 
One of the things we probably would have to do if we wanted to 
try to moderate their posture is think about some limit that we 
could enter into as well as them.
    One such thought, having to do with Saudi Arabia, is 
perhaps it is time that we agree not to send nuclear weapons on 
other countries' soil, beyond what we have already done, to any 
additional countries, and they should agree to do so, as well. 
I actually brought this up with some Pakistani generals. They 
were very excited about the idea. That was some time ago. We 
should take it up again, I think.
    Mr. Poe. What is the effect of our continuing to give 
foreign aid, military reimbursement to Pakistan? I understand 
they are in the top five of all the countries that we give 
foreign aid to. Has that done anything to bring Pakistan, their 
rogue activities, whether it is support of terrorism or 
anything else, to the table to deal candidly with the United 
States?
    Ambassador?
    Ambassador Haqqani. The simple answer is no.
    There have been some half-hearted and insufficient 
measures. Right after 9/11, General Musharraf promised a 
complete turnaround. You might recall that, at that time, the 
administration believed that Pakistan had turned around, only 
to find a few years later that support for Afghan Taliban was 
continuing. Later on, of course, one faction of the Afghan 
Taliban, the Haqqani network, became the big issue.
    The problem there is that Pakistan's own view of its 
national interest prompts it in acting very differently from 
what it says that it will do to the United States, which are 
commitments it has to make to Washington primarily to keep 
getting that aid. So I have, in many of my writings, argued 
that, in effect, that aid serves as a subsidy to Pakistan for 
bad policies that the United States thinks it wants to have 
changed.
    Mr. Poe. One question, just yes or no. Should the United 
States reevaluate its commitment to sending $1 billion, 
approximately, a year to Pakistan?
    Ambassador Haqqani. Yes. It should reevaluate.
    And the reevaluation should be based on Pakistan's actual 
needs. Pakistan's real needs right now are not more military. 
Pakistan already has the world's eighth-largest military. But 
48 percent of Pakistan's school-going-age children don't go to 
school. So if American money was to be sent to Pakistan to help 
Pakistan, it should be directed at those 48 percent school 
children, not at the Pakistani military.
    Unfortunately, money is fungible. That is why Congress, in 
its Enhanced Partnership with Pakistan Act, made it very clear 
that the military should no longer control decision making 
because then that enables the military to get the money 
diverted to itself. Unfortunately, the provisions of the 
Enhanced Partnership with Pakistan Act have all been subjected 
to waivers rather than to the certification that Congress 
desired.
    Mr. Poe. Thank you, Ambassador.
    I yield 5 minutes to the ranking member from Massachusetts, 
Mr. Keating.
    Mr. Keating. Well, thank you.
    We have another rollcall. I don't want to have you come 
back for another series, so I am going to ask you to be very 
brief. But a couple of things.
    We were just approaching this, Ambassador. You wrote an 
article in the Wall Street Journal. You know what it is, 
obviously. But I want to ask you, in a sense, you are saying 
part of the problem with Pakistan is the delusion that it is 
the equal of India.
    What is the U.S. doing to add to that delusion? What should 
we be doing to change that delusion?
    Ambassador Haqqani. In all Pakistani attempts at getting a 
strategic calculus, there is always an assumption that they 
will continue to have military assistance from the United 
States in one form or another. So military assistance from the 
United States makes Pakistan think that it can actually 
qualitatively compete with the United States--although that is 
becoming increasingly difficult, with American military 
equipment being available to India as well. Previously, it was 
not, especially during the Cold War. But I think that military 
assistance does lead to that delusion, number one.
    Number two, on almost all occasions, the administration, in 
particular, tries to always try and assuage Pakistani feelings 
whenever something happens in India-U.S. relations.
    I think both those things need to change.
    Mr. Keating. Let me just comment quickly, too. If we were 
ever, hypothetically, to do a negotiation, it sounds very 
naive, but who are we really dealing with in Pakistan? Is it 
the ISI? Who is making the decisions?
    Ambassador Haqqani. It is the Pakistani military, which 
also controls the ISI. And, unfortunately, the military always 
uses the excuse that the civilians are there, so it negotiated 
with the civilians when the military doesn't want to deal. But 
when the military wants something to be decided, they come do 
you directly.
    And, unfortunately, that is something you have encouraged 
by talking to both separately, not insisting on civilian 
control of military institutions as was provided for in the 
Enhanced Partnership with Pakistan Act.
    Mr. Keating. I also think that at the nucleus of a lot of 
these issues is the fact that Pakistan, to be a modern and 
thriving country, to compete with the countries they want to 
compete with, they have to get control of their own economy and 
their own revenue.
    We have been there. I know the chair has been there. I have 
been there. The revenue system there is incapable of supporting 
any kind of modern economy.
    Now, don't you think, before we are talking about these 
other issues, or to not deal with these issues, we can't even 
really begin to talk about the issues that are the centerpoint 
of this hearing. I honestly think that is the starting point 
there. And you touched upon it with the aid we have.
    So could anyone comment on that? To me, that seems the 
primary issue.
    Ambassador Haqqani. Basically, aid has become a substitute 
for revenue in Pakistan. Pakistan has one of the worst tax-GDP 
ratios of any country in the world. And although every few 
years, when the American direct aid is less than quantum and 
the IMF is dealing with Pakistan, the IMF always insists on 
Pakistan enhancing its tax base, but it is almost never done. 
And for strategic considerations--which basically means 
Pakistan is too big to fail, so, therefore, let's bail them 
out--those considerations are always set aside.
    Mr. Keating. I am reminded, in our own country, the former 
Chair of the Joint Chiefs, General Dempsey, at the end of his 
nomination process, he was asked what was the most important 
issue for the U.S. security or military, and he said, ``Our 
economy.'' And I think this holds true here.
    I yield back.
    Mr. Poe. I thank the gentleman.
    We will be in recess for another vote. And as soon as that 
vote is over, we will resume this hearing. Thank----
    Mr. Sherman. Mr. Chairman, would you object if I asked 
questions while you gentlemen are voting? Because I voted on 
this Capps motion.
    Mr. Poe. I will need to be here when you do it. So we won't 
be gone long.
    Mr. Sherman. Okay.
    [Recess.]
    Mr. Rohrabacher [presiding]. The subcommittee will come to 
order.
    And now you can see why American foreign policy is right on 
target every time.
    Mr. Perkovich. Now you are in charge.
    Mr. Rohrabacher. There you go.
    And I now call on my good friend from California, Mr. 
Sherman, for his questions.
    Mr. Sherman. I will address this one to Ambassador Haqqani, 
but others can chime in, as well.
    There has always been some dispute between Shiites and 
Sunnis in Pakistan. As I understand it, General Bhutto was a 
Shiite at a time when that did not preclude him from leading 
Pakistan. There is cooperation sometimes between Iran and 
Pakistan. At the same time, you see an intensification of 
Shiite-Sunni terrorist acts in Karachi. Worldwide, the split 
between Shiites and Sunnis has gotten considerably deeper as 
the Alawite in Damascus has killed at least 200,000 Sunni 
Muslims.
    Is it politically difficult for Islamabad to cooperate with 
Tehran given the worldwide intensification of the split between 
the Shiites and the Sunnis?
    Ambassador Haqqani. The short answer to the last part of 
your question, Congressman, is that, yes, it is difficult for 
Pakistan to cooperate with Tehran, although that hasn't stopped 
individuals within the Pakistani Government, different branches 
of the government, from cooperating.
    Shias constitute 15 percent of Pakistan's population, but 
relations between Shias and Sunnis generally have not been bad 
since independence. The founder of Pakistan, Muhammad Ali 
Jinnah, was Shia. Many members or Prime Ministers, specifically 
Bhutto's government, were Shia. General Yahya Khan, who was one 
of Pakistan's several military dictators, was Shia.
    This is more of a recent phenomenon in the last 20, 30 
years. It has evolved as a proxy war between Saudi Arabia and 
Iran that has resulted in sectarian killings in Pakistan.
    The good part of it, of course, is that still we don't see 
a bloodbath between Sunnis and Shias in towns where they live 
together. And, as far as policies are concerned, Pakistan has 
generally tended to side with Saudi Arabia rather than Iran on 
most questions.
    Mr. Sherman. But on proliferation issues, has Pakistan 
cooperated with Iran?
    Ambassador Haqqani. Well, the A.Q. Khan network certainly 
supplied designs and equipment to Iran, although the Pakistani 
Government took the position that those were unauthorized.
    Mr. Sherman. Yes.
    Pakistan is 72-percent Punjabi--or correction, the military 
is 72-percent Punjabi. The country is about 54-percent Punjabi. 
And I would assume the officer corps is more than 72 percent; 
and the generals, probably far, far more than that.
    Does this cause dissatisfaction among the other ethnic 
groups in Pakistan? And does that pose a risk for the military? 
Do you see the military perhaps changing and making a point of 
bringing in Sindhis and Baloch and Mohajir and other into the 
military?
    Ambassador Haqqani. The makeup of the Pakistan Army, in 
particular, has changed very little since independence because 
it was based on British Government's martial racist theory. 
They basically thought that certain ethnic groups were more 
martial than others, and they precluded groups such as the 
Sindhis from joining the military.
    Now, even if they make an attempt to try and have the army 
reflect the ethnic makeup of the country, it would take many, 
many years before a Sindhi who joins as a second lieutenant now 
or a Baloch who joins as a second lieutenant now, that he will 
have a shot at becoming a general.
    Pakistan has not had a single Sindhi general ever in its 
history, and it has had only one Baloch three-star general in 
its history.
    Mr. Sherman. Not even a one-star Sindhi? Wow.
    Ambassador Haqqani. Not that I know of.
    Mr. Sherman. And you say even if the Pakistani Army tried 
to open it up it would take them a long time. Are they trying?
    Ambassador Haqqani. They say that they are, but we all know 
that on a lot of occasions and on a lot of subjects what they 
say is not what is happening on the ground.
    Mr. Sherman. We cooperate with Pakistan in a variety of 
different categories. Does it make sense to compartmentalize 
our relationship on nuclear issues and keep that separate from 
our relationship on other issues--for example, terrorism?
    Ambassador Haqqani. Personally, I think that it does not 
make sense, for the simple reason that all cooperation feeds 
into what I call Pakistan's military's delusion of equality, 
not ``equality'' in a principle sense but ``equality'' in a 
weapons-system-for-weapons-system sense, which is not easy to 
do for a country as poor as Pakistan.
    Mr. Sherman. They view themselves as the military equal of 
the United States? Of India?
    Ambassador Haqqani. Of India.
    Mr. Sherman. Of India. Yeah.
    Ambassador Haqqani. But I am sure that my colleagues here 
would have some opinion on this matter, as well, because there 
are many people who think that nuclear issues can be 
compartmentalized from other issues. And I think it would be 
fair to----
    Mr. Sherman. Let's hear from Dr. Markey on that.
    Mr. Markey. I think that you have to be careful about the 
question of linkage across all of these issues. And, you know, 
there is the Pakistan that we wish it would be, and it is 
nothing like the Pakistan that really is. And that Pakistan is 
a Pakistan that is deeply troubling. And it is also a Pakistan 
that could be significantly worse. And so we are always caught 
in a situation of just what kind of risk do we want to run.
    With respect to stovepiping nuclear issues, there is 
certainly the issue of just how sensitive they are, and there 
is also the issue of the, sort of, technical aspects, which 
leads then necessarily to this kind of stovepiped area that is 
separate from others.
    But with respect to how they fit into our broader concerns, 
I think it has typically been the case that U.S. policymakers 
have placed them at the top of our list and yet have seen that 
our ability to reach in and do anything about it seriously--and 
that is, you know, a lot of the topic that we are here to 
discuss today, our ability to actually change their nuclear 
policy--is very, very limited.
    Mr. Sherman. Dr. Perkovich?
    Mr. Perkovich. I think you have to be prepared to separate 
the issues and treat them separately, especially when there is 
an opportunity to do something constructive. And there, it 
would be self-defeating to link.
    And just do the thought experiment. We are very concerned 
about terrorism, for example. So if there were a new Al Qaeda 
in Pakistan and we were aware of it, and all of a sudden they 
were prepared to cooperate with us, we would do what it would 
take to facilitate that, regardless of whether they improved 
their tax collection or whatever else they are doing.
    And so, on nuclear policy, both from the standpoint of 
securing materials and facilities against terrorism or in a 
crisis where you are worried about a nuclear war with India, 
that becomes front and center, and you deal with that as you 
have to, and you forsake linkage. So I think, you know, we 
shouldn't be naive about the need to do that.
    It is not exactly correct to say nuclear has always risen 
to the top. And Henry knows this very well, as well. When the 
Soviets invaded Afghanistan, for very understandable reasons, 
beginning 1979 throughout the 1980s, the U.S. put 
nonproliferation to the side and put driving the Soviets out of 
Afghanistan as the number-one priority, and so didn't exercise 
all of the leverage or even the legal authorities that it had 
at the time to pressure Pakistan on nonproliferation.
    Now, we don't need to relitigate that; there was a good 
reason to do it. But it hasn't always been the case that 
nuclear is the most pressing issue.
    Mr. Sherman. I yield back.
    Mr. Rohrabacher. Thank you very much.
    And, as I am in the chair, I will yield myself whatever 
time is necessary.
    First and foremost, let me just note that I have had a 
long, long relationship with Pakistan and with that part of 
world. I was probably elected as Pakistan's best friend in 
Congress. And I have to say that, during the 1980s, I was 
involved with Pakistan at the highest level, in terms of 
supporting the mujahideen fight against the Soviet Union in 
Afghanistan.
    Even then, there were reasons for concern. The lion's share 
of the supplies that we provided for the mujahideen went to 
Hekmatyar Gulbuddin. And the ISI, which is the intelligence 
unit there and their military intelligence in Pakistan, 
intentionally gave the most radical of the elements most of the 
weapons and supplies that we were providing.
    I found that, even then, to be, you know, upsetting and not 
thinking in terms of the long run, except I had assumed that 
because the ISI military people I was working with were all 
clean-shaven and looked like British officers that they were 
not radicals. I think I made a mistake.
    And so, after the Soviet Union was eliminated from 
Afghanistan--which I am proud to have played a part in that 
effort--there was a period of chaos, and the Taliban emerged. 
Why did the Taliban take power? Taliban took power because the 
people in Pakistan set it up and organized and supported and 
supplied the Taliban and then cut a deal with the Saudis to 
finance the Taliban. And, thus, the people of Afghanistan had 
radicalism, the Taliban version, shoved down their throats and 
started this whole cycle that has been so damaging.
    Let me note, after that, after 9/11 and all the way up 
until 9/11, the Pakistani ISI was deeply involved in supporting 
the Taliban and, thus, terrorism--terrorism--throughout the 
region and throughout the world.
    And, after 9/11, yes, I am told that the Pakistanis became 
very cooperative. I don't know the details about that. I would 
assume they were cooperative at some point because we were, at 
that point, willing to really do some damage to people who were 
getting in our way of seeking revenge for the slaughter of 
3,000 Americans on 9/11.
    However, during that same period of the greatest height in 
our concern, the Pakistani Government saw fit to give safe 
haven to Osama bin Laden.
    First of all, is there anyone on the panel who believes 
that the high-level Pakistani authorities did not know that 
Osama bin Laden was in their country? Is there anyone here who 
could say, no, no, they didn't know, we got to give them the 
benefit of the doubt?
    No, I have never met anybody willing to say that.
    And then, of course, since Osama bin Laden was brought to 
justice, we have Dr. Afridi, the man who helped us bring him 
to--he his been arrested by the Pakistani Government and thrown 
into a dungeon. And, to me, that is an insult, an intentional 
insult, to the American people, who have just seen our people 
slaughtered, that they are going to do harm to the person who 
helped us bring to justice the murderer of our people.
    So all of those things lead me, kind of, to think that 
maybe the Pakistan that I was supporting during the Cold War 
because they were supporting the United States is--that was 
either a really bad decision on my part back then, or we have 
evolved into a situation where Pakistan was once our friend and 
is now an enemy.
    And I will let you guys comment on that. But let me note 
one of our greatest adversaries now in the world, not an enemy 
of ours but an adversary, is China. And it is not Russia 
anymore. I mean, a lot of people want to have Russia as our 
enemy again, but it isn't, as compared to China is our 
adversary, possibly enemy. And Pakistan's Government is what? 
Trying to have as a close a relationship to China has they can.
    And that leaves us, then, with what other analysis can 
they--we are talking about nuclear materials here today. We 
have a country with all of that background, and we have to ask 
ourselves, do they deserve our trust for a civilian nuclear 
program?
    And I am going to let each one of you answer that question, 
but I want to leave one last item on the table. And that is the 
Pakistani Government has to be judged on what they have done 
and why that have done some of these things. Those things that 
I just outlined are damaging to the security of the United 
States and the peace of the world. But what they are doing, it 
seems to me, to their own people, the Baloch, the Sindhis, 
Christians, is unforgiveable and unconscionable.
    And we have let it ride. We have just let it slide. We 
continue giving them weapon systems that are used to destroy 
Baloch villages. We give them weapons that, instead of being 
used against the Taliban, are being used against people in 
their own country who oppose their government. And I think that 
is something that--all of these things are important 
considerations.
    So let me ask the panel, number one, none of you decided to 
say that Pakistan probably didn't know that Osama bin Laden was 
there. So let me just ask right down the line: Does the 
Pakistani Government today deserve our trust when it comes to 
this nuclear development?
    If you could just give me about a 30-second answer on that, 
and go right on down the line, that is fine.
    Ambassador Haqqani. Congressman, I have already laid out my 
views in my written testimony and in two books in which I make 
the point that the focus of Pakistan has been--and American 
interests and Pakistani interests do not converge. They have 
not converged for a while.
    During the Cold War, Pakistan was interested in getting 
American military and economic assistance to compete with 
India, and it made some concessions to America in return. The 
problem is that in Washington there are always people who are 
willing to see the Pakistani glass as half-full, and they don't 
see it from the view of the Pakistani people.
    Pakistan's children don't go to school, or 48 percent of 
them don't go to school. The Baloch are being repressed. The 
Mohajirs in Karachi are being repressed. Sindhis have their own 
set of complaints. The support of the Taliban has actually 
resulted in blow-back that has disrupted our own society. And 
one institution, which is the Pakistani military, dominates all 
others. That is not a healthy situation.
    American policy should be directed at trying to force or 
make or convince Pakistan into becoming a normal country where 
schools run, where electricity is available, where the 
aspirations of the people are answered, and not just some dream 
of the military of great conquests, which it hasn't been able 
to fulfill except when it is oppressing and repressing its own 
people.
    Mr. Rohrabacher. So the answer was ``no''?
    Ambassador Haqqani. Absolutely. That was a rather long 
``no,'' but yes, Congressman Rohrabacher.
    Mr. Rohrabacher. Thank you.
    Doctor?
    Mr. Markey. Thank you.
    I think the question about nuclear negotiations with 
Pakistan should be judged--the utility of those negotiations 
should be judged on whether they are realistic and whether they 
could serve U.S. interests.
    And I think, right now, the answer to the first question of 
realism is ``no,'' it is unrealistic on both sides. And, at the 
moment, the answer to the second question is also ``no.''
    Mr. Sokolski. As I made clear in my testimony, I think it 
is a bad idea generally to go running around the world with 
nuclear carrots, particularly in the subcontinent. I would not 
limit it to Pakistan. I don't think the India deal was a winner 
either. And it seems to me, you can actually make things much 
worse by playing with this.
    If you need to negotiate, I would do it on the merits. And 
I would, as you have laid out, expect performance as a function 
of what it is you are willing to offer. And I don't think the 
nuclear area offers very much practically, and it can be really 
militarily dicey--that is to say, self-defeating. I would stay 
clear of it.
    Mr. Perkovich. I don't think these things are done on the 
basis of trust. If they were, the answer would be a simple 
``no.'' But as your former colleague or Governor first in 
California--I am a Californian--President Reagan--you know, 
``Trust but verify.'' I would always say, ``Distrust and 
verify.'' And so that would be the proposition here.
    And I don't think we are going to have an agreement, so I 
don't think it is going to be an issue really.
    Mr. Rohrabacher. Well, there are two factors.
    Number one, we do have the technological capabilities of 
building nuclear reactors today that will not have the waste 
left over, like the Iranian reactor will, producing nuclear 
weapons. And there is a whole new generation possible of 
nuclear power plants. So, no matter what we would ever do, we 
should--in fact, not just Pakistan but anyone that we are 
involved with, expanding the realm of nuclear power should be 
based on the new technology rather than the old technology. 
Because we don't need no leftover material that can be used for 
nuclear bombs. We don't need that anywhere. So that is the 
number-one thought.
    And let me just suggest that we give hundreds of millions 
of dollars every year to Pakistan. I would hope that we come to 
our senses and, number one, treat Pakistan as it deserves to be 
treated by the decisions they have made that affect us. And all 
of their recent decisions have been contrary to America's 
security needs and contrary to the peace of the world.
    So I would hope that we would--then I would hope that, if 
we make those decisions, that the Pakistani people themselves 
will understand what is going on, the repercussions of it, and 
start insisting on people to govern them who are more 
consistent with these values that we are expressing today.
    So I would call on my colleagues to join me in eliminating 
that aid that we are giving to Pakistan, at least until Dr. 
Afridi is set free as a sign of good faith to us.
    And, with that, I would recognize my good friend, who is 
almost as outspoken as I am.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, panel, for being here today.
    I am really grateful to be here with Congressman 
Rohrabacher. I appreciate his persistence in regard to the 
doctor, and that really should be so important for the 
relationship that we have with Pakistan. Additionally, I 
appreciate his expertise on nuclear reactors, as we just heard. 
And so that is just very helpful.
    My association and appreciation of South Asia is that my 
dad served in the Flying Tigers during World War II. And of all 
things--even Dana doesn't know this--but he departed by boat, 
of all things, from Miami, Florida, went through the Suez Canal 
in 1944 and landed at Karachi, and then went to service to 
protect the people of China and South Asia. So I am just very 
grateful, with that background.
    And then I had the opportunity to actually see a remarkable 
effort of cooperation, the earthquake relief in Muzaffarabad, 
where American and Pakistani military worked together. And 
there was a field hospital set up for female doctors to serve 
the injured female citizens of that region. It was a remarkable 
situation which I had hoped the people of Pakistan would see 
the hopes that we have for their country.
    And then, finally, a remarkable opportunity that I had that 
is very sad in retrospect, Prime Minister Benazir Bhutto 
visited my home community of Lexington, South Carolina, and was 
a speaker at a dinner there for a local medical foundation. She 
made such a great impression. My wife was so impressed. Sadly, 
I was at her home in December 2007 and had breakfast, and 10 
days later she was assassinated.
    So it just is heartbreaking to think--and then, Ambassador, 
for you to keep citing, correctly, the lack of education, that 
just breaks your heart for a country that should be doing well.
    Putting that in mind, Ambassador, would cooperation with 
the U.S. be valuable enough for Pakistan for it to consider 
joining the Nuclear Non-Proliferation Treaty?
    Ambassador Haqqani. While it would be in Pakistan's 
interest to consider all options of joining nuclear restraint 
regimes--because, very frankly, the pursuit of nuclear 
competition will not necessarily be in Pakistan's interest--I 
do not see that happening.
    The opposition to joining the Non-Proliferation Treaty as 
well as the CTBT has been very entrenched. And, so far, 
Pakistan's establishment, as it is called, the Pakistani 
military and the intelligence service, have shown no interest 
in encouraging participation in those restraint regimes.
    Mr. Wilson. And I appreciate you pointing out that it would 
certainly be in the interest----
    Ambassador Haqqani. Yes.
    Mr. Wilson [continuing]. Of the people. It would actually 
be in the interest of the military, the government, whatever. 
But thank you for raising that.
    And, Mr. Sokolski, with the three pillars of the Nuclear 
Non-Proliferation Treaty, NPT, being nonproliferation, 
disarmament, and the right to peacefully use nuclear 
technology, is it wise for the United States to enter into a 
123 agreement with countries that cannot agree to these basis 
tenets?
    Mr. Sokolski. The three pillars you refer to is a doctrine 
that was promoted first by the Italians and the South Africans. 
It is not really in the treaty or even in the negotiating 
record.
    But just taking it nonetheless, I think, in general, you 
have to have standards for the NPT to mean anything. And we 
have been backing away from those standards too steadily over 
the last, I would say, 20 years.
    The key one--and I think a lot on the panel will agree on 
this--was the India deal. I think that was a step backwards. So 
we are a little bit on our back heels right now. But you do 
want to insist on certain restraints that I don't think 
Pakistan will agree to.
    Mr. Wilson. And thank you for your insight.
    And for any of you or all of you, currently, the Pakistani 
civilian nuclear program consists of three operational 
reactors. And we know that they have already entered into a 123 
agreement with the Chinese.
    Is the nuclear energy market in Pakistan large enough to be 
attractive to the U.S. nuclear industry?
    Mr. Sokolski. I would like to take that.
    Most of the money that those reactors cost is financed by 
China. Without that financing, there would be no construction. 
So it is a negative market. In other words, you have to--
listen, you don't sell the reactor so much as the financing.
    And I don't think that is a market that--I mean, I would 
hesitate to speak on behalf of the industry, but I doubt they 
are interested in going in.
    Mr. Wilson. And, to me, that is very unfortunate.
    Well, go ahead, please, Dr. Perkovich.
    Mr. Perkovich. Just to add, Henry is right. And I think for 
your thinking about this, too, there is no vendor other than 
the Chinese who would seek to build nuclear power plants in 
Pakistan for the reasons that Henry mentioned. Pakistan doesn't 
have the money, and it is not a secure enough environment.
    Now, one of the problems that that raises is that is why 
the incentive that would be offered to the Pakistanis to 
control their nuclear program, if it is, ``We will sell you 
nuclear power plants,'' it is not really an incentive because 
they know they can't buy these plants either. And so it is 
another reason why this kind of deal won't actually work.
    Mr. Wilson. Well, that is disappointing because I know, in 
my home State of South Carolina, over 60 percent of all 
electrical generation is clean, green nuclear. And it has 
enabled us to compete with the rest of the world in terms of 
manufacturing and living standards.
    And I just hope that something can be done to address the 
extraordinary issue of reliable electrical generation for the 
people of Pakistan. And whatever that is, I am happy to try to 
back each of you up.
    Mr. Sokolski. Last night or, I guess, two nights ago, one 
does research before they come here I hope, and I did. So what 
do you do? You go on Google. And I plugged in ``USAID,'' 
``World Bank,'' ``Asian Development Bank,'' and I put in 
``electrical generation.''
    And what I got was really very disturbing. What you got 
were IG reports on all of the fraud associated with the aid 
that had been expropriated by the Pakistanis in ways that you 
couldn't even get to, well, what were we trying do? When you 
got to the third page of the entry, you were able to see that 
USAID is trying to do a lot of sensible things. So is the Asian 
Bank. But it is all non-nuclear. And as I explained in the 
testimony, there are good reasons for that. It has to do with 
the expense and the availability of things like natural gas.
    So it is certainly something to hope for, but it certainly 
is not something to start with. I think that is sort of the 
basic point.
    And the good-governance question overrides all economic 
questions here. I mean, it is quite obvious. It is just 
embarrassing that we have to see IG reports before you get to 
what USAID wants to tell you. You know, it was a whole page of 
them. It was very disheartening.
    Mr. Wilson. Well, thank you for your research.
    Thank you, each of you, for your insight.
    Mr. Rohrabacher. Well, thank you.
    And Congressman Wilson has been a wonderful person to work 
with over the years. And he takes this job very seriously, as 
we all do.
    And this issue today, I think, is of--it should crystalize 
in our minds what we are dealing with in terms of Pakistan. Can 
we trust the Pakistani Government to engage with us in a deal 
concerning nuclear power? And if we can't, which is what I am 
understanding today and which my common sense tells me, why are 
we then giving so much aid, providing military equipment to a 
government, a regime, that we can't even trust to deal with a 
civilian electricity through nuclear energy program?
    We need to reassess. The time is far past when we should 
have made the decision. But today we need to make the decision 
of reassessing our strategic position with Pakistan, trying to 
push them in the right direction by letting them know there are 
consequences to bad behavior and behavior that hurts other 
people.
    And so, with that said, I appreciate your testimony, the 
insights you have given us today. I appreciate Congressman 
Wilson being with us today and, of course, Judge Poe for 
calling this hearing.
    With that said, this hearing is adjourned.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                  Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Material submitted for the record by Mr. Henry D. Sokolski, executive 
           director, Nonproliferation Policy Education Center

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
